                   AUDIT REPORT

              Audit of NRC’s Budget Execution Process



                      OIG-13-A-18       May 7, 2013




All publicly available OIG reports (including this report) are accessible through

                              NRC’s Web site at:

           http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                  May 7, 2013


MEMORANDUM TO:              J.E. Dyer
                            Chief Financial Officer

                            R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S BUDGET EXECUTION PROCESS
                            (OIG-13-A-18)


Attached is the Office of the Inspector General’s (OIG) audit report titled Audit of NRC’s
Budget Execution Process. The report presents the results of the subject audit.
Agency comments provided at the April 4, 2013, exit conference and subsequent
discussions have been incorporated, as appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Eric Rivera, Team Leader, Financial and Administrative Audits Team, at
415-7032.

Attachment: As stated
                                             Audit of NRC’s Budget Execution Process




EXECUTIVE SUMMARY


 BACKGROUND

      The U.S. Government requires Federal agencies to establish an effective
      funds control process to ensure funds are used only for the purpose set
      forth by Congress and that expenditures do not exceed amounts
      authorized. The Nuclear Regulatory Commission’s (NRC) budget process
      consists of strategic planning; budget formulation; submission of the
      agency’s budget to the Office of Management and Budget and Congress;
      approval of the budget by Congress; budget execution; and the reporting of
      budget and performance results. The budget execution phase refers
      generally to the time period during which the budget authority made
      through an appropriation remains available for obligation by NRC. NRC’s
      task during the budget execution process is to spend appropriated funds to
      carry out its mission in accordance with fiscal statutes. Between fiscal
      years (FY) 2008 and 2012, NRC’s budget appropriation ranged from
      $926.1 million to $1,066.9 million.


 OBJECTIVES

      The audit objectives were to determine whether (1) NRC maintains proper
      financial control over appropriated and apportioned funds to ensure
      compliance with applicable Federal laws, policies, and regulations and
      (2) opportunities exist to improve the budget execution process.


 RESULTS IN BRIEF

      Overall, the agency maintains proper financial control over appropriated
      and apportioned funds to ensure compliance with applicable Federal laws,
      policies, and regulations. However, the Office of the Inspector General
      (OIG) identified opportunities for improvement in the following areas:

            A.     Incomplete implementation of Planning, Budgeting, and
                   Performance Management process.




                                    i
                                            Audit of NRC’s Budget Execution Process



          B.     Insufficient understanding of Financial Accounting and
                 Integrated Management Information System reporting
                 capabilities.

          C.     Incomplete delegation and budget execution training records.

    Addressing these concerns will strengthen NRC’s budget execution
    process.


RECOMMENDATIONS

    This report makes recommendations to improve the internal controls over
    the management of budget execution. A list of these recommendations
    appears on page 20 of this report.


AGENCY COMMENTS

    OIG met with NRC management officials and staff at an April 4, 2013, exit
    conference, at which time the agency provided informal comments to the
    draft report. The informal comments were incorporated into the draft report
    as appropriate. NRC management and staff reviewed the revised draft
    report and agreed with the findings and recommendations. The agency
    opted not to provide formal comments for inclusion in this final report.




                                  ii
                                           Audit of NRC’s Budget Execution Process




ABBREVIATIONS AND ACRONYMS


      FAIMIS   Financial Accounting and Integrated Management Information
               System

      FY       fiscal year

      GAO      Government Accountability Office

      MD       Management Directive

      NRC      Nuclear Regulatory Commission

      OCFO     Office of the Chief Financial Officer

      OIG      Office of the Inspector General




                                iii
                                                                Audit of NRC’s Budget Execution Process



TABLE OF CONTENTS


        EXECUTIVE SUMMARY ............................................................................ i

        ABBREVIATIONS AND ACRONYMS ........................................................iii

        I.      BACKGROUND ............................................................................... 1

        II.     OBJECTIVES .................................................................................. 6

        III.    FINDINGS ....................................................................................... 6

                A. INCOMPLETE IMPLEMENTATION OF
                   PLANNING, BUDGETING, AND PERFORMANCE
                   MANAGEMENT PROCESS ....................................................... 7

                B. INSUFFICIENT UNDERSTANDING OF FAIMIS
                   REPORTING CAPABILITIES ................................................... 12

                C. INCOMPLETE DELEGATION AND BUDGET
                   EXECUTION TRAINING RECORDS ....................................... 15

        IV.     CONSOLIDATED LIST OF RECOMMENDATIONS ..................... 20

        V.      AGENCY COMMENTS ................................................................. 21


        APPENDICES

                A. OBJECTIVES, SCOPE, AND METHODOLOGY ..................... 22

                B. FY 2011 PROGRAM BUDGET LEAD OFFICE
                   RESPONSIBILITIES ................................................................ 24

                C. FY 2011 BUDGET EXECUTION STRUCTURE ...................... 25




                                                 iv
                                                                        Audit of NRC’s Budget Execution Process




I.         BACKGROUND



                    The U.S. Government requires Federal agencies to establish an effective
                    funds control process to ensure funds are used only for the purpose set
                    forth by Congress and that expenditures do not exceed amounts
                    authorized. There are laws and regulations that guide the implementation
                    of Federal fiscal policy. These laws and regulations play an integral role in
                    the budget process and establish the rules and restrictions governing
                    Federal obligations and spending.1 Agencies maintain policy directives for
                    the effective management of funds to implement the requirements set forth
                    in those Federal laws and regulations.

                    The complete budget execution cycle includes eight steps (see Figure 1):

                    Step 1: Congress must pass an appropriations act for the fiscal year
                    (FY)2 before any funds become available.3 An appropriation is a form of
                    budget authority which is an act of Congress that provides legal authority
                    for agencies to incur obligations and to make payments.

                    Step 2: The Office of Management and Budget provides apportionments
                    of funds, usually on a quarterly basis, to Federal agencies to make money
                    available for use for specified time periods, programs, activities, projects,
                    objects, or any combination of these.

                    Step 3: An apportionment may be further subdivided by an agency into
                    allotments. At the Nuclear Regulatory Commission (NRC), the Director of
                    the Division of Planning and Budget within the Office of the Chief Financial
                    Officer (OCFO) receives allotments.




1
 The administrative control of funds at Federal agencies must satisfy the requirements set forth in Office of
Management and Budget Circular A-11, Preparation, Submission, and Execution of the Budget.
2                                             st
    The Federal fiscal year begins on October 1 of the calendar year.
3
 Agencies can also operate under a continuing resolution, which is legislation in the form of a joint resolution
enacted by Congress, when the fiscal year is about to begin or has begun, to provide budget authority for Federal
agencies and programs to continue in operation until the regular appropriations acts are enacted.


                                                           1
                                                                      Audit of NRC’s Budget Execution Process




                                    Figure 1: Budget Execution Process




                                                                                                  Source: OCFO




                 Step 4: The Director of the Division of Planning and Budget issues
                 allowances to officials who assume supervisory authority and fiduciary
                 responsibilities for financial plans and allowances issued to them.

                 Step 5: Commitments represent a reservation of funds for a possible
                 future liability.

                 Step 6: Obligations represent an actual liability for goods and services.4




4
 Federal law requires agencies to obligate money in accordance with its lawful purpose, time, and amount limits in
the appropriation. The purpose of the obligation must be authorized, occur within applicable time limits, and be
within congressionally established funding limits.



                                                        2
                                                                        Audit of NRC’s Budget Execution Process




                  Step 7: Expenditures are the issuance of checks, the disbursement of
                  cash, or the making of an electronic funds transfer to liquidate (pay)
                  obligations.

                  Step 8: Deobligations and contract closeout represent the cancellation
                  or downward adjustment of a previously recorded obligation.


                  NRC’s Budget Process

                  NRC’s budget process consists of strategic planning; budget formulation,
                  submission of the agency’s budget to the Office of Management and
                  Budget and Congress; approval of the budget by Congress; budget
                  execution; and the reporting of budget and performance results. The
                  budget execution phase refers generally to the time period during which the
                  budget authority made through an appropriation remains available for
                  obligation by NRC. NRC’s task during the budget execution process is to
                  spend appropriated funds to carry out its mission in accordance with fiscal
                  statutes. NRC must also ensure that funds are managed in the most
                  efficient and effective manner and business line5 results are communicated
                  to agency management and Congress.


                  Between FYs 2008 and 2012, NRC’s budget appropriation ranged from
                  $926.1 million to $1,066.9 million (see Figure 2). In FY 2011, NRC’s time-
                  keeping system recorded approximately 50 full-time equivalents in support
                  of budget execution activities.




5
  A business line is a component part of the agency under the direction of a “responsible lead office” (e.g., Office of
New Reactors). Examples of a business line include High Level Waste, New Reactors, and Financial Management.
Business lines often include supporting offices (e.g., Office of Nuclear Regulatory Research does not lead a business
line, but has a supporting role for several business lines). See Appendix B for a full list of NRC business lines.


                                                           3
                                                                             Audit of NRC’s Budget Execution Process




Figure 2: NRC’s Appropriations from FYs 2008 Through 2012


                                               Annual Appropriation
     Appropriation in $ (millions)   1,100.0

                                     1,050.0

                                     1,000.0

                                      950.0

                                      900.0

                                      850.0
                                                2008    2009         2010        2011     2012
                                                                   Fiscal Year


                                                                             Source: OIG analysis of NRC information



 Budget Execution Roles and Responsibilities

 Office of the Chief Financial Officer

 The Chief Financial Officers Act of 1990 (Public Law 101-576) requires
 each agency’s Chief Financial Officer to monitor the financial execution of
 the agency’s budget, and prepare and submit to the head of the agency
 timely performance reports. NRC’s OCFO responsibilities include:

                                          Monitoring the actual expenditures in relation to NRC's budget.

                                          Controlling the use of agency funds to ensure that they are
                                          expended in accordance with applicable laws and standards.




                                                               4
                                                                     Audit of NRC’s Budget Execution Process




                                Developing and maintaining an integrated agency accounting
                                and financial management system. On October 1, 2010, NRC
                                implemented the Financial Accounting and Integrated
                                Management Information System (FAIMIS) as the official
                                system of record for agency financial operations.

                 The Division of Planning and Budget manages NRC’s budgeting functions,
                 including developing and executing NRC’s annual budget. This division
                 also develops financial reports to support agency strategic planning, and
                 program evaluation. The Division of Planning and Budget Director
                 delegates to agency officials, usually office directors (designated as
                 allowance holders), authority to receive allowances.

                 NRC Budget Execution Delegation Responsibilities

                 Figure 3 shows the hierarchy of NRC’s budget execution delegations:

                                        Figure 3: Delegation Hierarchy


                  Director of Division of Planning and Budget:
                        Issue allowances to agency allowance holders
                  Allowance Holder:
                        Commit and obligate funds in accordance with
                        purpose, time, and amount restrictions6
                        Maintain financial records for their allowance
                        Reconcile office records to NRC financial system
                        Delegate authority to either an allowance financial
                        manager or funds certifying official
                  Allowance Financial Manager:
                        Management of allowance on a day-to-day basis
                        Delegate authority to funds certifying official
                  Funds Certifying Official:
                        Verifies availability of funds prior to entering an
                        obligation in the NRC financial system
                                                  Source: OIG analysis of OCFO information


6
 The purpose of the obligation or expenditure must be authorized, the obligation must occur within the time limits
applicable to the appropriation, and the obligation and expenditure must be within the amount Congress has
established.


                                                        5
                                                   Audit of NRC’s Budget Execution Process




II.    OBJECTIVES

           The audit objectives were to determine whether (1) NRC maintains proper
           financial control over appropriated and apportioned funds to ensure
           compliance with applicable Federal laws, policies, and regulations and
           (2) opportunities exist to improve the budget execution process. See
           Appendix A for information on the audit scope and methodology.



III.   FINDINGS


           Overall, the agency maintains proper financial control over appropriated
           and apportioned funds to ensure compliance with applicable Federal laws,
           policies, and regulations. However, the Office of the Inspector General
           (OIG) identified opportunities for improvement in the following areas:

                  A.    Incomplete implementation of Planning, Budgeting, and
                        Performance Management process.

                  B.    Insufficient understanding of FAIMIS reporting capabilities.

                  C.    Incomplete delegation and budget execution training records.

           Addressing these concerns will strengthen NRC’s budget execution
           process.




                                         6
                                             Audit of NRC’s Budget Execution Process




A.   Incomplete Implementation of Planning, Budgeting, and Performance
     Management Process

     NRC developed the Planning, Budgeting, and Performance Management
     process to integrate NRC’s (1) strategic planning, (2) budget formulation
     (resource determination process), (3) budget execution (or monitoring
     performance process), and (4) performance assessment activities.
     However, NRC’s budget formulation and execution processes are not
     aligned. Although the agency recognizes this problem, management has
     not yet implemented all the elements in the Planning, Budgeting, and
     Performance Management process, and has not enforced the use of
     certain financial management system codes. As a result, NRC’s current
     budget process inhibits the agency’s ability to determine agency business
     line costs.


     The Planning, Budgeting, and Performance Management Process

     NRC’s Planning, Budgeting, and Performance Management process
     represents the agency’s planned integrated approach to budgeting with the
     overall goal of linking budgeting to outcomes. The Government
     Performance and Results Act of 1993, required Federal agencies to
     establish a strategic planning and performance measurement process. In
     1999, the agency introduced the Planning, Budgeting, and Performance
     Management process (see Figure 4) to implement the Government
     Performance and Results Act requirements. This process includes the
     following steps: (1) strategic planning, (2) determining resource needs and
     budget formulation, (3) monitoring performance and budget execution, and
     (4) program assessment. The intent of the Planning, Budgeting, and
     Performance Management process is to implement a disciplined,
     integrated process where achieving desired results drives the work to be
     accomplished and the resources necessary to complete that work.




                                   7
                                                Audit of NRC’s Budget Execution Process




Figure 4: NRC’s Planning, Budgeting, and Performance Management Process




                                                                        Source: OCFO




         Budget Formulation and Execution Are Not Aligned

         NRC’s budget formulation and execution processes are not aligned. In
         practice, NRC’s budget formulation is based on business lines but
         executed at the allowance holder level. Moreover, inconsistent use of
         financial management system codes further inhibits budget
         implementation.




                                      8
                                                                         Audit of NRC’s Budget Execution Process




                  Business Line-Based Formulation/Allowance Holder-Based Execution

                  NRC established a budget formulation process where staff develop the
                  budget by projecting the costs of business lines. The budget formulation
                  process is led by agency offices responsible for approximately 17 business
                  lines (see Appendix B for the FY 2011 Program Budget Lead Office
                  Responsibilites). Some agency offices may not have the lead on a
                  particular business line but may still expend money associated with the
                  same business line. All agency offices involved with the same business
                  line are expected to work collaboratively to formulate the budget.

                  Although the budget is formulated along business lines, NRC executes the
                  budget by tracking funds at the allowance holder level (see Appendix C for
                  the FY 2011 Budget Execution Structure). For example, an NRC office
                  may have the lead on two business lines that cross multiple offices. During
                  budget execution, that same office controls expenditures only within its
                  office.

                  However, in recent years OCFO has made numerous efforts to provide
                  allowance holders and business line leaders more detailed budget
                  information. While the agency has already made the change to business
                  line approach in the budget formulation process, the funds control process
                  still reflects the allowance holder structure. OCFO believes that the
                  current structure provides for better internal controls.

                  Financial Management System Coding

                  Currently, there are few controls over financial management system codes.
                  All financial transactions in FAIMIS require coding to identify fiscal year,
                  funding source, and other pertinent information. In addition, FAIMIS
                  transactions require job codes7 and budget object codes.8 OIG obtained a
                  list of job codes and noted that some job codes can cover a broad range



7
  A job code is a budgeting code that defines a specific NRC project. All NRC commitment and obligation
transactions require the designation of a job code. Job codes refer to the activity performed, for example, reactor
inspection, and secretarial support.
8
 The budget object classification code classifies budget activity by type of cost (e.g., supplies, equipment, or
personnel).



                                                           9
                                         Audit of NRC’s Budget Execution Process




of agency activities. Conversely, some codes are so specific that they refer
only to a portion of an activity. There were more than 2,800 job codes
specific to FY 2011. Managers stated there is a lot of flexibility in creating
and applying job codes, which makes it difficult to track business line costs.

In addition, budget object code use is inconsistently enforced and
understood. Budget object codes indicate type of item acquired, such as
training and telephone services. Each fiscal year, OCFO issues a list of
budget object codes; however, according to agency managers the use of
budget object codes is inconsistently enforced.

Planning, Budgeting, and Performance Management Process Not
Fully Implemented

Although the agency has taken some steps to implement the Planning,
Budgeting, and Performance Management process, implementation is
incomplete. OCFO recognizes this and has taken the following steps to
facilitate improvements:

       1.     An internal study by OCFO to analyze the current budget
              process illustrated the need to fully implement Planning,
              Budgeting, and Performance Management. Specifically, this
              study highlighted the lack of integration between budget
              formulation and execution.

       2.     OCFO has drafted a management directive to establish a
              performance-based process of strategic planning, budgeting,
              and program management.

       3.     During FY 2010, the agency initiated the Transforming Assets
              into Business Solutions task force, reflecting the agency’s
              ongoing effort to streamline the budget process.

Further, there is no standard agency guidance for using job codes. During
the course of this audit, OCFO initiated a working group to standardize,
optimize, and simplify job code usage. OCFO plans to release standard
job code guidance after the efforts of this working group are completed.




                              10
                                       Audit of NRC’s Budget Execution Process




Although OCFO issues a list of budget object codes each fiscal year, use
of these codes is not enforced during budget execution. Two agency
managers stated that not all managers use correct budget object codes.

OCFO officials acknowledged that the enforcement of the consistent use of
budget object codes needs to be improved.

Business Line Costs Are Unclear

The current budget structure inhibits the agency’s ability to determine
accurate business line costs. Improved capabilities to determine business
line costs would allow the agency to make more effective cost
management decisions. Some OCFO senior officials acknowledged that
the current structure does not allow the agency to fully determine what
offices are spending. By fully implementing the agency’s Planning,
Budgeting, and Performance Management process and enhancing
financial management system coding, NRC will have more reliable budget
execution information.

Recommendations

OIG recommends that the Chief Financial Officer:

      1. Complete implementation of NRC’s Planning, Budgeting, and
         Performance Management process.

      2. Issue standardized agency guidance for using job codes.

      3. Enforce the use of correct budget object codes.




                             11
                                                                     Audit of NRC’s Budget Execution Process




           B.      Insufficient Understanding of FAIMIS Reporting Capabilities

                   NRC staff do not fully understand how to obtain budget information from
                   FAIMIS that would be useful for decisionmaking. According to the
                   Government Accountability Office’s (GAO) Standards for Internal Control in
                   the Federal Government,9 program managers need both operational and
                   financial data to determine whether they are meeting agency goals.
                   However, the agency has not provided sufficient training on FAIMIS
                   reporting functionalities and report availability. Without a full understanding
                   of system capabilities to access budget information, staff may not have the
                   data needed to make informed business decisions.

                   Access to Budget Data

                   GAO standards for internal control require that program managers have
                   access to both operational and financial data to effectively manage
                   resources. This information is necessary both for long-term strategic
                   planning purposes and day-to-day management.

                   Insufficient Understanding of How To Obtain FAIMIS Data

                   Agency staff have difficulty obtaining and understanding FAIMIS reports.
                   In October 2010, NRC began using FAIMIS as the agency’s core financial
                   system and the official system of record for budget transactions. OIG
                   conducted multiple interviews with staff throughout the agency who work
                   on budget execution and learned that staff have difficulty obtaining and
                   understanding budget execution reports. Those interviews revealed
                   common concerns regarding FAIMIS reporting capabilities. These
                   concerns include:

                                    Standard budget reports are difficult to understand. This has
                                    led some offices to rely on supplementary reports developed
                                    by OCFO staff and ad hoc systems. For example, staff
                                    surveyed by OIG rely on a manually prepared agencywide
                                    report run daily by an OCFO staffer rather than developing a
                                    report specific to their budget using FAIMIS.



9
    GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal Government, issued November 1999.


                                                        12
                                         Audit of NRC’s Budget Execution Process




             The tool to develop custom reports in FAIMIS, Business
             Analytics, is difficult to use, which discourages staff from
             using it.

             FAIMIS reports do not provide all the information that
             managers require in one report. Staff have to review budget
             totals from two or more FAIMIS reports to obtain a complete
             picture of their office’s budget.

Additional FAIMIS Training Needed

Although the agency has offered training on FAIMIS, additional training is
needed on the system’s report functionalities and features. The agency
offered significant training opportunities before FAIMIS was implemented
on October 1, 2010. Since then, there has been limited training provided to
agency staff on FAIMIS reporting capabilities.

Further, OCFO has not developed a process to ensure FAIMIS report
training meets user needs.

OCFO management acknowledge that FAIMIS reports have been a
challenge for program staff to obtain and understand. Several OCFO
managers agreed more training should be provided. OCFO staff plans to
work with agency staff to identify the right training needs and then add
training courses based on staff feedback.

In addition, to address immediate staff concerns, OCFO created a FAIMIS
Reports Working Group to prioritize and develop requested custom reports.
OCFO management also plans to address staff concerns by automating
the daily report prepared manually by the OCFO staff member.

Potential for Less than Optimal Business Decisions

Without a full understanding of system functionalities to access budget
information, staff may make less than optimal business decisions. OCFO
staff stated that some agency staff involved with budget execution do not
have a full understanding of FAIMIS reporting features. As a result, at
times, staff find it hard to retrieve financial information necessary to




                              13
                                        Audit of NRC’s Budget Execution Process




effectively and efficiently administer their business lines. Enhancing NRC
staff knowledge of FAIMIS reporting functionalities would improve the
agency’s ability to execute the budget to meet strategic goals and
objectives.

Recommendations

OIG recommends that the Chief Financial Officer:

      4. Develop a process to define training needs and measure the
         effectiveness of agency training provided on FAIMIS reporting
         functions, features, and capabilities.

      5. Provide training to agency staff on FAIMIS reporting functions,
         features, and capabilities.




                             14
                                              Audit of NRC’s Budget Execution Process




C.   Incomplete Delegation and Budget Execution Training Records

     According to Federal and agency guidance, NRC must maintain
     appropriate records and make such documentation available. However,
     supporting documents regarding financial management delegations and
     budget execution training are incomplete. This has occurred because
     management does not have written recordkeeping procedures for
     maintaining these documents. In addition, agency guidance does not
     specify whether allowance holder delegations should be to the position or
     specific individual. Without appropriate documentation, individuals may be
     executing transactions outside their authority.

     Delegation and Training Documentation Requirements

     The Chief Financial Officers Act of 1990 contains requirements regarding
     agency delegation responsibilities. Specifically, the Chief Financial Officers
     Act of 1990 authorized NRC’s Chief Financial Officer to direct and manage
     the selection and training of personnel to carry out agency financial
     management functions.

     GAO’s standards for internal control contain guidance on agency
     delegations. Specifically, access to resources and records should be
     limited to authorized individuals and supporting documentation should be
     readily available for review. This control ensures that transactions and
     other significant events are authorized and executed only by persons
     acting within the scope of their authority. GAO’s guidance requires that
     delegations for key areas of authority be clearly communicated to
     managers and employees.

     NRC Guidance

     NRC Management Directive (MD) 4.2, Administrative Control of Funds,
     contains guidance on delegations. Regarding allowance holders, MD 4.2
     provides that the budget director has the responsibility to delegate and
     rescind authority from agency allowance holders. This directive provides
     explicit guidance for delegating authority (1) from allowance holders to
     allowance financial managers and (2) redelegating authority to funds




                                   15
                                                                 Audit of NRC’s Budget Execution Process


                   certifying officials. In both cases, these delegations of authority must be in
                   writing and specific to an individual.

                   MD 4.2 also contains requirements for the recordkeeping of delegation
                   supporting documents. Specifically, OCFO is responsible for maintaining
                   records for both allowance financial managers and funds certifying officials.
                   Offices are required to maintain delegation documentation for their funds
                   certifying officials.

                   MD 4.2 further identifies training requirements for allowance financial
                   managers and funds certifying officials.10 Specifically, allowance financial
                   managers and funds certifying officials must complete two NRC courses11
                   related to budget execution. The courses are to be completed before
                   individuals are assigned as an allowance financial manager or a funds
                   certifying official, or as soon as these courses become available.

                   OCFO staff stated that their internal Web site contains the official list of
                   delegations to allowance holders, allowance financial managers, and funds
                   certifying officials. Further, OCFO maintains the source documentation to
                   support this list.

                   Incomplete Documentation

                   NRC does not maintain complete supporting documentation regarding
                   financial management delegations for allowance financial managers and
                   funds certifying officials listed on OCFO’s Web site. In addition, OIG was
                   not provided with documentation regarding completion of mandatory
                   training for allowance financial managers and funds certifying officials
                   during fieldwork. OCFO staff stated they use Office of the Chief Human
                   Capital Officer records from the agency’s official training system to verify
                   course completion.

                   Finally, the agency is not consistent as to whether delegations for
                   allowance holders apply to the position or individual.




10
     There are no training requirements for allowance holders.
11
     These two mandatory courses are Financial Management Seminar and Administrative Control of Funds.


                                                      16
                                                                          Audit of NRC’s Budget Execution Process




                     Allowance Financial Manager Delegation Documentation

                     OCFO documentation regarding allowance financial manager delegations
                     is incomplete. OIG obtained a list of allowance financial managers from
                     OCFO’s internal Web site12 (the official list) and compared it to the
                     supporting documentation on file in OCFO. While the official list included
                     15 allowance financial managers, there was documentation in OCFO for
                     only 10 allowance financial managers.

                     Funds Certifying Official Delegation Documentation

                     OCFO and program office supporting documentation regarding funds
                     certifying official delegations are incomplete. OIG obtained the official list
                     of 74 funds certifying officials from the Web site and compared this list to
                     delegations on file in OCFO and program offices. OCFO and office files
                     did not include all funds certifying officials on the official list, and included
                     13 additional individuals. Figure 5 shows the results of OIG’s analysis. A
                     “Yes” indicates OIG found the name on the internal Web site or supporting
                     documentation in either OCFO or program office files. A “No” indicates the
                     name was not on the internal Web site list, or supporting documentation
                     was unavailable.

                     FIGURE 5: OIG Analysis of Funds Certifying Official Delegation
                     Documentation13
                     Internal Web site                OCFO             Program Office       Total       Percent
                            Yes                        Yes                  Yes              68           78%
                            Yes                        Yes                  No                0            0%
                            Yes                        No                   Yes               5            6%
                            Yes                        No                   No                1            1%
                            No                         Yes                  Yes               7            8%
                            No                         No                   Yes               6            7%
                            No                         Yes                  No                0            0%
                                                                                Total        87          100%

                                                                         Source: OIG analysis of NRC information.


12
     OIG obtained this list as of April 27, 2012, for analysis.
13
  The supporting documentation was compared to internal Web site information as of April 27, 2012, and
supporting documentation was acquired in June 2012 with adjustments made to account for known timing
differences.


                                                                  17
                                         Audit of NRC’s Budget Execution Process




Training Documentation for Funds Certifying Officials and Allowance
Financial Managers

For allowance financial managers, OCFO provided a list showing 9 of 15
had taken both mandatory courses. For funds certifying officials, OCFO
provided a list showing 55 of 74 had taken the mandatory courses. On
May 1, 2012, OCFO sent notification to allowance financial managers
identifying allowance financial managers and funds certifying officials who
were not fully trained and requested individuals not in compliance take
the necessary courses in the near future. Also, as of the end of fieldwork
for this audit, OCFO sent allowance financial managers and funds
certifying officials a memorandum reminding them of the training
requirement.

Allowance Holder Delegation

NRC is not consistent as to whether delegations for allowance holders
apply to the position or individual. For example, several staff stated that
these delegations apply to the position, not to the individual. However,
agency staff could not provide any evidence to support this statement. In
addition, OIG could not find any agency document that clarified this issue.

Unclear Recordkeeping Requirements

NRC does not have written recordkeeping procedures for maintaining
delegation and training documents for funds certifying officials and
allowance financial managers. While MD 4.2 requires that delegations be
documented and training be completed by funds certifying officials and
allowance financial managers, it does not provide guidance on retaining
written delegations and training records. OCFO confirmed that there are
no office procedures for maintaining written delegations and training
information.

Additionally, agency guidance is unclear as to whether delegations for
allowance holders apply to the position or to the individual. OCFO agreed
with OIG that allowance holder delegations should be addressed and
subsequently issued clarifying guidance that allowance holder delegations
are to the position.




                              18
                                         Audit of NRC’s Budget Execution Process




Potential Exists for Unauthorized Budget Transactions

The lack of adequately documented delegations and training information
increases the potential for staff to review and control budget data outside
their authority, thereby potentially leading to fraud, waste, and misuse. The
delegation process is a fundamental internal control for ensuring that only
authorized individuals are executing NRC’s budget. By enhancing NRC’s
delegation process and enforcing training requirements, NRC will have
more effective internal controls over the budget execution process.


Recommendations

OIG recommends that the Chief Financial Officer:

      6. Develop recordkeeping procedures to track delegations.

      7. Develop recordkeeping procedures to track training
         documentation for allowance financial managers and funds
         certifying officials.

      8. Incorporate clarified guidance on position delegations for
         allowance holders in MD 4.2, which is currently under revision.




                              19
                                                 Audit of NRC’s Budget Execution Process




IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Chief Financial Officer:

                1. Complete implementation of NRC’s Planning, Budgeting, and
                   Performance Management process.

                2. Issue standardized agency guidance for using job codes.

                3. Enforce the use of correct budget object codes.

                4. Develop a process to define training needs and measure the
                   effectiveness of agency training provided on FAIMIS reporting
                   functions, features, and capabilities.

                5. Provide training to agency staff on FAIMIS reporting functions,
                   features, and capabilities.

                6. Develop recordkeeping procedures to track delegations.

                7. Develop recordkeeping procedures to track training
                   documentation for allowance financial managers and funds
                   certifying officials.

                8. Incorporate clarified guidance on position delegations for
                   allowance holders in MD 4.2, which is currently under revision.




                                       20
                                                Audit of NRC’s Budget Execution Process




V.   AGENCY COMMENTS

        OIG met with NRC management officials and staff at an April 4, 2013, exit
        conference, at which time the agency provided informal comments to the
        draft report. The informal comments were incorporated into the draft report
        as appropriate. NRC management and staff reviewed the revised draft
        report and agreed with the findings and recommendations. The agency
        opted not to provide formal comments for inclusion in this final report.




                                     21
                                                 Audit of NRC’s Budget Execution Process



                                                                           APPENDIX A


OBJECTIVES, SCOPE, AND METHODOLOGY



    OBJECTIVES

        The audit objectives were to determine whether (1) NRC maintains proper
        financial control over appropriated and apportioned funds to ensure
        compliance with applicable Federal laws, policies, and regulations and
        (2) opportunities exist to improve the budget execution process.



    SCOPE

        This audit focused on reviewing management and financial controls over
        the agency’s budget execution process for FY 2011. We conducted this
        performance audit at NRC headquarters in Rockville, Maryland, from
        January 2012 through October 2012. Internal controls related to the audit
        objectives were reviewed and analyzed. Throughout the audit, auditors
        were aware of the possibility or existence of fraud, waste, or misuse in the
        program.



    METHODOLOGY

        To accomplish the audit objectives, OIG reviewed relevant laws,
        regulations, and guidance, including the Antideficiency Act of 1982; the
        Chief Financial Officers Act of 1990; Office of Management and Budget
        Circulars A-11, Preparation, Submission, and Execution of the Budget, and
        A-127, Financial Management Systems; and GAO’s Standards for Internal
        Control in the Federal Government. OIG also reviewed agency guidance
        and documents, including MD 4.2, Administrative Control of Funds;
        monthly Budget Execution Reports; office internal budget procedures; and
        multiple reports generated from FAIMIS. Additionally, OIG reviewed
        reports related to the agency’s Transforming Assets into Business
        Solutions Task Force.




                                      22
                                        Audit of NRC’s Budget Execution Process




OIG interviewed NRC staff at headquarters and the regions to obtain
insights on the agency’s budget execution process. Furthermore, OIG
interviewed budget staff from several Federal agencies to discuss their
budget execution practices.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

The work was conducted by Eric Rivera, Team Leader; Kathleen Stetson,
Team Leader; Mary Meier, Audit Manager; and Michael Steinberg, Senior
Auditor.




                             23
                                                       Audit of NRC’s Budget Execution Process


                                                                                   APPENDIX B
               FY 2011 Program Budget Lead Office Responsibilities
                          (Program Budget Formulation)

                              BUDGET FORMULATION
    MAJOR
                           BUSINESS LINE                  RESPONSIBLE LEAD OFFICE
   PROGRAM
 Nuclear Reactor            New Reactors                         Office of New Reactors
     Safety
                         Operating Reactors               Office of Nuclear Reactor Regulation

                                                          Office of Nuclear Material Safety and
                          New Fuel Facilities
                                                                       Safeguards
                                                          Office of Nuclear Material Safety and
                       Operating Fuel Facilities
                                                                       Safeguards

                        Spent Fuel Storage and            Office of Nuclear Material Safety and
                            Transportation                             Safeguards
Nuclear Materials
                                                          Office of Nuclear Material Safety and
and Waste Safety          High Level Waste
                                                                       Safeguards
                                                          Office of Federal and State Materials
                       Nuclear Materials Users             and Environmental Management
                                                                       Programs
                                                          Office of Federal and State Materials
                    Decommissioning and Low Level
                                                           and Environmental Management
                               Waste
                                                                       Programs

                                  Agency-wide Infrastructure Product Lines
                    Human Resources Management;
                                                            Office of the Chief Human Capital
                      Training and Development
                                                                          Officer
                               Outreach
                        Administrative Services                  Office of Administration

                    Rent and Facilities Management               Office of Administration
Corporate Support
                       Information Management                 Office of Information Services

                        Information Technology                Office of Information Services

                          Disaster Recovery                   Office of Information Services

                        Financial Management               Office of the Chief Financial Officer

                      Performance Management               Office of the Chief Financial Officer

                            Policy Support                Office of the Chief Financial Officer
                          Source: OIG analysis of OCFO data in FY 2011 Budget Execution Guide



                                           24
                                                          Audit of NRC’s Budget Execution Process


                                                                                       APPENDIX C

                         FY 2011 Budget Execution Structure
                               BUDGET EXECUTION
      Allowance Holder                                      Office
        Administration                                   Administration
                                    Office of the Advisory Committee on Reactor Safeguards
                                            Atomic Safety and Licensing Board Panel
                                                      Computer Security Office
                                                  Office of International Programs
                                                  Office of Congressional Affairs
                                          Office of Commission Appellate Adjudication
                                                Office of the Chief Financial Officer
         Central/OCFO                                     The Commission
                                                       Office of Enforcement
                                          Office of the Executive Director for Operations
                                                   Office of the General Counsel
                                                       Office of Investigations
                                                       Office of Public Affairs
                                            Office of Small Business and Civil Rights
                                                       Office of the Secretary
   Office of Federal and State
                                           Office of Federal and State Materials and
  Materials and Environmental
                                            Environmental Management Programs
     Management Programs
   Office of the Chief Human
                                           Office of the Chief Human Capital Officer
           Capital Officer
Office of Nuclear Material Safety
                                       Office of Nuclear Material Safety and Safeguards
          and Safeguards
     Office of New Reactors                         Office of New Reactors
    Office of Nuclear Reactor
                                             Office of Nuclear Reactor Regulation
            Regulation
 Office of Nuclear Security and
                                       Office of Nuclear Security and Incident Response
        Incident Response
 Office of the Inspector General                 Office of the Inspector General
 Office of Information Services                  Office of Information Services
  Office of Nuclear Regulatory
                                            Office of Nuclear Regulatory Research
             Research
             Region I                                       Region I
             Region II                                     Region II
             Region III                                    Region III
             Region IV                                     Region IV
  Salaries and Benefits/OCFO                               All Offices
                                                          Source: OIG analysis of OCFO data


                                            25
